 U.S. Department of the Interior
 Office of Inspector General




            AUDIT REPORT


ADMINISTRATION OF SELECTED PROGRAMS
   BY THE NORTHERN ARAPAHO TRIBE

             REPORT NO. 95-I-942
                 MAY 1995
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




 MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY: Final Audit Report for Your Information -
                 “Administration; of Selected Programs by the Northern
                 Arapaho Tribe” (No. 95-I-942)

Attached, for your information, is a copy of the final audit report referenced above.

The Northern Arapaho Tribe did not administer the Indian Child Welfare Program,
Housing Improvement Program, and Water Utility Program effectively and in many
instances did not use Federal funds for their intended purposes. In operating Tribal
programs, the Tribe did not fully comply with regulations and budgetary controls.
Further, the Tribe had not developed an adequate personnel system or adequate
operating procedures. As a result, the Tribe did not provide adequate program
services, and its financial and economic conditions were depressed. For example, the
general fund had a deficit of $935,000 in 1991, and overdue accounts payable
exceeded $400,000 by April 1994.

We recommended that the Chairman, Northern Arapaho Business Council,
(1) identify any Tribal resources that could be used to pay the Tribe’s overdue
accounts payable and to finance the planning and implementation of improved
administrative systems for the Tribe and (2) prepare a plan of operations to
document and control its annual activities. We also recommended that the Bureau
of Indian Affairs assist the Tribe in preparing its corrective action plan and monitor
the Tribe’s implementation of planned improvements.

The Bureau’s response to the draft report included a corrective action plan from the
Chairman of the Northern Arapaho Business Council. The Chairman agreed with the
recommendations and stated that the Council has used Tribal resources to pay
overdue accounts and to improve administrative systems. Based on the response, we
consider the report’s three recommendations resolved.

If you have any questions concerning this matter, please contact me on 208-5745.




Attachment
                                                                     C-IN-BIA-004-94


            United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   Headquarters Audits
                                  1550 Wilson Boulevard
                                         Suite 401
                                   Arlington, VA 22209




To:        Assistant Secretary for Indian Affairs

From:      Acting Assistant Inspector General for Audits

Subject:   Final Audit Report on Administration of Selected Programs by the
           Northern Arapaho Tribe (No. 95-I-942)

The Office of the Inspector General has completed a review of the administration
of selected programs by the Northern Arapaho Tribe. The audit was requested by
the Billings Area Director, Bureau of Indian Affairs, on behalf of the Tribe. The
objective of the audit was to determine whether the Tribe was administering
selected programs effectively and efficiently.

Our audit showed that the Tribe did not administer selected programs effectively
and in many instances did not use Federal and Tribal funds for their intended
purposes. We also found that the Tribe had not yet developed an adequate
personnel system or adequate internal directives or operating procedures. As a
result, the Tribe was not able to provide adequate program services, and its financial
and economic conditions were depressed. For example, the general fund had a
deficit of $935,000 in 1991, and overdue accounts receivable exceeded $400,000 by
April 1994.

We recommended that the Chairman, Northern Arapaho Business Council,
(1) identify any potential Tribal resources that can be used to resolve the Tribe’s
overdue accounts payable and to finance the planning and implementation of
improved administrative systems for the Tribe and (2) prepare a plan of operations
to document and control its annual activities. We also recommended that your
office assist the Tribe in preparing its corrective action plan and monitor the Tribe’s
implementation of planned improvements.

Your response (Appendix 1) to our draft report generally concurred with the
report’s three recommendations and was sufficient for us to consider the
recommendations resolved and implemented. Therefore, no further response to this
report is required (see Appendix 2).
The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.
                                                                 C-IN-BIA-004-94


            United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Headquartcrs Audits
                                 1550 Wilson Boulevard
                                       Suite 401




                       LETTER AUDIT REPORT

Mr. Richard Brannon, Chairman
Northern Arapaho Business Council
P.O. Box 396
Fort Washakie, Wyoming 82514

Dear Mr. Brannon:

Subject: Audit Report on Administration of Selected Programs by the Northern
         Arapaho Tribe (No. 95-I-942)

                             INTRODUCTION
The Office of Inspector General has completed a review of the Northern Arapaho
Tribe’s administration of programs financed by Federal, State of Wyoming, and
Tribal funds. This audit was requested by the Billings Area Director, Bureau of
Indian Affairs, on behalf of the Northern Arapaho Tribe’s Business Council. The
Council expressed concern about the manner in which the Tribe was administering
some of its programs. The objective of our audit was to determine whether the
Tribe was administering selected programs effectively and efficiently.

BACKGROUND

The Northern Arapaho Tribe, with 5,647 enrolled members, shares the 3,500 square-
mile Wind River Reservation in west-central Wyoming with the Shoshone Tribe.
The Tribe’s General Council comprises all adult Tribal members, who meet several
times a year to provide overall guidance to the Tribe. A six-member Business
Council elected by Tribal members for 2-year terms manages programs for the Tribe.
The Tribe operates 22 programs, of which 10 are funded primarily by Federal or
State contracts and 12 are funded predominantly by Tribal revenue. The Bureau of
Indian Affairs has oversight responsibilities for programs funded mainly by Bureau
contracts and limited oversight responsibilities for certain other Tribal programs.

Tribal revenues for 1994 are expected to be $4.6 million: about $2.7 million from
Federal and State agencies to operate contracted programs, including the social
services, housing improvement, home heating assistance, nutrition, and economic
development programs, and about $1.9 million from minerals royalties and taxes to
operate Tribal programs, including the burial assistance and water utility programs.
The Tribe’s revenues for 1994 are estimated because the single audit for that year
has not been completed.

SCOPE OF AUDIT

Our audit was conducted at the Tribe’s headquarters in Ethete, Wyoming. We
reviewed accounting and other program records for the period 1990 through 1993;
however, as needed, we reviewed records dating from 1986. The documentation
audited included contracts, accounting records, personnel records, Business Council
meeting minutes, the Tribe’s audited financial statements, and program evaluations
prepared by the Billings Area Office. We also interviewed Business Council
members and Tribal employees and members.

This review was conducted in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included
such tests of records and other auditing procedures that were considered necessary
under the circumstances.

We also evaluated the Tribe’s system of internal controls in the areas of finance,
personnel and property, to the extent that we considered necessary. The internal
control weaknesses are discussed in the Results of Audit section of this report.

PRIOR AUDIT COVERAGE

The Office of Inspector General has not issued a report in the past 5 years
concerning the Northern Arapaho Tribe’s management of contracted and Tribal
programs.

At the time of our review, the Tribe had obtained independent audits of its financial
statements, as required by the Single Audit Act of 1984, for the years 1986 through
1991. The reports contained qualified opinions on the Tribe’s financial statements
and included numerous findings and recommendations. We found that the Tribe had
not adequately addressed the audits’ findings and recommendations.

                           RESULTS OF AUDIT
The Northern Arapaho Tribe did not administer selected programs effectively and
in many instances did not use Federal and Tribal funds for their intended purposes.
The Code of Federal Regulations (25 CFR 271 and 276) requires tribes to plan,
organize, direct, staff, operate, and monitor programs using sound management
practices. In operating its programs, however, the Tribe did not fully comply with
regulations and budgetary controls. Also, the Tribe had not yet developed an
adequate personnel system or adequate internal directives or operating procedures.
Despite the expenditure of about $40 million of Tribal and contract funds from 1986
through 1993, the Tribe did not provide adequate program services, and its financial


                                         2
    and economic conditions were depressed. For example, 50 percent of the Tribal
                                                                                      1
    members were unemployed, more than 35 percent of the housing was substandard,
    the general fund had a deficit of $935,000 in 1991, 10 of 11 Tribal enterprises had
    operating losses in 1991, and overdue accounts payable exceeded $400,000 by April
    1994.

    Administrative Controls

    The Tribe had not established an effective plan of organization or administrative
    systems to appropriately control funds, property, or other assets. The more critical
    administrative deficiencies that we found are as follows:

            - The Tribe did not always budget for the expenditure of its funds, and when
    it did prepare budgets, it did not follow them. For example, in 1986 and 1993, the
    Tribe did not prepare a budget for spending Tribal funds, which totaled about
    $2.3 million and $2.6 million, respectively. Also, in 1988 the Tribe prepared a
    budget for spending $5.5 million of severance tax funds; however, it did not adhere
    to its budget and overspent the budget by $3 million.

            - The Tribe’s organizational structure did not provide for clearly delineated
    lines of authority and responsibility. For example, it was not clearly established
    whether the General Council should plan programs and the Business Council should
    operate programs or whether the General Council or the Business Council should
    do both. This caused misunderstandings, especially in regard to whether the
    Business Council’s expenditure of severance tax funds had been properly authorized
    by the General Council. Additionally, Tribal organizations did not have distinct
    lines for program reporting and accountability. For instance, one program manager
    said that he reported to management personnel at the agency which funded his
    program, while another program manager told us that he reported directly to the
    General Council, an action which would bypass the Business Council.

        - The Tribe had no written directives or operating procedures for
administering its programs. For example, since the Tribe had no personnel
directives or procedures, it improvised personnel procedures on a case-by-case basis.

       - The Tribe did not have a staffing plan or a merit protection system to
ensure equal treatment of employees. For instance, as new members were elected
to the Business Council, the employment of numerous Tribal employees was
terminated without cause and other employees stated that they resigned because
they believed that their employment would be terminated.




l
According to Bureau of Indian Affairs requirements, a decent, safe, and sanitary house should
conform to the building standards for the region; have heating, plumbing, and electrical systems to
meet tribal, county, or state codes; and have a sufficient number of bedrooms for the number of
people living in the house.

                                                3
         - The Tribe did not have adequate financial controls to ensure that finds
were spent for intended purposes. For example, the Tribal Controller said that a
Tribal employee had transferred $211,000 of severance tax funds to a program
account without the knowledge or approval of the finance staff or the Business
Council.

         - The Tribe did not have a property management system in that there was
no inventory of equipment. Therefore, it was not possible to identify the property
owned by the Tribe or determine where the property was located. For example, the
only record of vehicles owned by the Tribe was a list kept by the Tribe’s insurance
agent showing that the Tribe insured 38 vehicles. We also found that a program
manager who had not worked for the Tribe for 5 months was still using a Tribal
vehicle.

Although the Tribe was attempting to improve its financial management system,
financial records needed to be updated and corrected. Also, audits had not been
conducted of the Tribe’s fiscal year 1992 and 1993 financial statements, and none of
the 47 internal control weaknesses reported in the fiscal year 1991 audit report had
been corrected at the time of our review.

Tribal Services

Deficiencies in financial and program administration were noted in the Indian Child
Welfare Program, the Housing Improvement Program, and the Water Utility
Program. For example:

       -  During 1992, the program manager of the Indian Child Welfare Program
inappropriately loaned $17,198 of Program funds to an alcohol abuse program
funded by the Department of Health and Human Services and hired relatives as
contract consultants at a cost of $6,578. In addition, the program manager: (1) did
not repay a $1,094 travel advance for a conference that he did not attend; and (2)
did not maintain time and attendance records to support $57,900 of his salary
charges from October 1990 through December 1992. Furthermore, the Tribe did not
monitor or analyze the results of the Program to determine whether Program goals
such as presenting seminars on Indian culture, organizing a youth peer facilitator
group, and training service agencies in Indian culture had been achieved. We found
that none of the nine Program goals had been accomplished.

        -  The program managers of the Housing Improvement Program stated that
the Business Council decided which applicants would receive assistance and the
manager then prepared priority rankings to justify the projects that the Business
Council selected. We reviewed the 55 applications for housing assistance received
during October 1990 through September 1993 and found that 23 applications
contained errors in determining the families’ eligibility and their priority rankings.
Also, we noted that 9 of 17 houses visited had construction defects, which included
the settling of foundations, inadequate drainage of wastewater, exposed electrical


                                          4
    wiring, inoperative electrical outlets, and leaking roofs and windows. We also
    determined that three nearly completed houses had not been worked on for at least
    5 months.

            - The Water Utility Program was not effective in ensuring that facilities were
    adequately constructed and maintained or that all amounts due were recorded
    accurately and collected. (The water system was originally constructed with Federal
    funds and was intended to become financially self-supporting through fees collected
    from the users.) For example, many households did not receive water during one
    summer because a 250,000-gallon water tank had been installed incorrectly and was
    removed from service. Also, the water distribution system developed water main
    leaks and breaks because it was not maintained adequately. Furthermore, the
    salaries for Utility personnel could not be paid, and the Program had no cash
    reserves because overdue accounts receivable had not been collected.

    Severance Taxes and Royalties

The Tribe spent $33 million of severance taxes and oil and gas royalties during 1986
through 1993 without establishing meaningful goals or objectives, without budgets or
financial plans, and without making a positive impact on the Tribal economy. (In
1986, the courts upheld the Tribe’s right to collect severance taxes on minerals
produced from Tribal land, and the Tribe gained access to about $11 million of
severance taxes that had been held in escrow pending the outcome of the litigation.)

By 1991, the Tribe’s severance tax reserves were expended, and the Tribe’s treasury
was nearly depleted. However, the Tribe still had substantial annual income from
severance tax revenues, royalties from oil and gas production, and Federal grant
programs. During 1991, the Tribe assisted a Tribal enterprise on a $2.1 million
                    2
revenue bond issue by pledging future severance tax revenues to guarantee the
bonds’ repayments. In 1991 (the most recent year for which audited financial
statements were available), however, the Tribe incurred a deficit in its general fund
of $935,000, and 10 of 11 enterprises had operating losses for that year.

By 1993, the Tribe was in serious financial condition. Lower energy prices reduced
severance tax proceeds on oil and gas royalties. In addition, because of significant
cost overruns on one construction project and inadequate cost controls at other
construction projects, the enterprise that had obtained the bond money had spent the
bond proceeds and defaulted on the bond payments. Therefore, the Tribe was using
its severance tax revenues to make the bond payments. By April 1994, the Tribe had
more than $400,000 in overdue accounts payable and was attempting to borrow
money to meet its then-current liabilities. Although the Business Council was


2
 The Business Council pledged the severance tax revenue to guarantee the bond payments. However,
in 1986, the General Council by resolution had prohibited the Business Council from borrowing more
than $20,000. Although the guarantee appeared to breach the general intent of the resolution, the
Business Council nevertheless pledged the severance tax revenue as a guarantee for the bond.

                                                5
attempting to limit total expenditures to total revenues, it is uncertain whether
progress can be made without outside assistance.

Bureau Assistance

The Bureau of Indian Affairs has provided advice and other assistance to the Tribe
regarding the Tribe’s program management. For example, a Bureau employee was
assigned to assist the Tribe in managing its organization. However, the employee
was advising the Business Council; managing the Tribal Credit Program; providing
oversight for many contract and Tribal programs; and serving as ad hoc personnel
officer, procurement manager, controller, and property manager. We believe that
the number of duties assigned to the employee was more than could be adequately
managed by one person.

Conclusion

In the final analysis, the Tribe has not built a viable organization that meets the
needs of Tribal members. Even though the Tribe has mineral-rich lands, it is
economically depressed. Also, the Tribe needs to improve its delivery of services to
Tribal members in numerous areas, including housing, child welfare, water, and
economic development. We believe that the $40 million the Tribe received from
1986 through 1993 ($33 million in Tribal funds and $7 million in contracted funds)
could have been more effectively used to alleviate the Tribe’s serious economic and
social problems.

Recommendations

We recommend that the Chairman, Northern Arapaho Business Council:

       1. Identify any potential Tribal resources that can be used to resolve the
Tribe’s overdue accounts payable and to finance the planning and implementation
of improved administrative systems for the Tribe.

      2. Prepare a plan of operations to document and control its annual activities.
The plan of operations should, at a minimum, ensure that the Business Council:

            -   Develops and implements procedures to effectively administer Tribal
programs.

           - Develops and implements an organizational plan that contains written
policies and procedures and clear lines of authority so that the administrative
managers can incur obligations on behalf of the Tribe and pay those obligations, and
program managers can conduct their programs without the Business Council being
involved in the conduct of the programs.




                                          6
            - Prepares, implements, and complies with an integrated annual budget
for all types of funding.

           - Hires qualified personnel to implement a documented financial and
budgetary accounting system and to establish a system of monitoring programs and
program managers.

           - Establishes, under the authority of the business manager, a documented
personnel and property system that includes a staffing plan, position descriptions,
performance standards, an employee evaluation system, training profiles, procedures
for ensuring merit protection for employees and procedures for identifying all
nonexpendable equipment and controls to ensure its proper use.

We recommend that the Assistant Secretary for Indian Affairs:

       3. Provide assistance to the Tribe in preparing a plan of action to address the
issues raised in this report and monitor the Tribe’s implementation of the planned
improvements.

Bureau of Indian Affairs Response

The February 15, 1995, response (Appendix 1) to the draft report from the Acting
Assistant Secretary for Indian Affairs included a February 9, 1995, corrective action
plan from the Chairman of the Northern Arapaho Business Council. The response
concurred with all three recommendations.

       Recommendation 1. The Business Council stated that as of January 1, 1995,
the Tribe had paid all accounts payable except for $40,000 for irrigation operation
and maintenance, which was being reconciled before payment.

        Recommendation 2. The Business Council stated that it has developed written
policies and operating procedures for personnel, procurement, and property and
financial management. The Business Council also stated that it had purchased
“improved accounting system software” and was in the process of hiring a qualified
financial manager and staff. Finally, the Business Council stated that it was
“committed to provide stability and accountability” for Tribal operations.

       Recommendation 3. The Bureau stated that it had assisted the Tribe in
preparing the February 9 action plan to correct the deficiencies cited in our report.
The Bureau also stated that it will continue to review the Tribe’s operations through
the Tribe’s single audits and through reviews of Bureau programs operated by the
Tribe.




                                         7
Office of Inspector General Comments

Based on the Bureau’s response, we consider the three recommendations resolved
and implemented (see Appendix 3). Therefore, no further response to this report
is required.

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

                                         Sincerely,




                                         Acting Assistant Inspector General
                                          for Audits




                                    8
                                                      APPENDIX 1
                                                      Page 1 of 5



            United States Department of the Interior
                         OFFICE OF THE SECRETARY
                             Washington, D.C. 20240




Subject:   OIG Draft Audit Report C-IN-BIA-004-94, Administration
           of Selected Programs by the Northern Arapaho Tribe,
           Issued November 30, 1994

The subject audit was requested by the Billings Area Directorr
Bureau of Indian Affairs (Bureau), on behalf of the Northern
Arapaho Tribe. The audit addressed whether the Tribe was
administering selected programs effectively and efficiently.   The
Northern Arapaho Tribe has responded to Recommendations Al, B.1,
B.2, B.3, B.4, and B.5 in the attached Corrective Action Plan.
Below is our response to Recommendation C.1 contained in the
report.

Recommendation  Cl: Provide assistance to the Tribe in preparing
a plan of action to address the issues raised in this report and
monitor the Tribe’s implementation of the planned improvement.

Response:  The Bureau concurs.  Staff from the Billings Area
Office of the Bureau and from the Office of Audit and Evaluation
met with the Arapaho Business Council in January and provided
them assistance in identifying funds available to address issues
raised in the OIG report and in developing their Corrective
Action Plan.

The Bureau has confirmed that the Tribe has resolved all findings
and recommendations cited for audits conducted under the Single
Audit Act of 1984 for the fiscal years 1986 through 1991, and the
Bureau has developed a review strategy for the Tribe’s pending
1992 and 1993 audits.

The Arapaho Business Council purchased a personal computer
resident software package called MUNIS to support the Tribe’s
budgeting, accounting and procurement operations.  Bureau staff
conferred with the MUNIS software vendor and the systems manager
to verify the functionality of the MUNIS software to support the
Tribe’s evolving management procedures and the software
implementation schedule.
                                                      APPENDIX 1
                                                      Page 2 of 5




The Bureau will continue to review the Tribe’s operations by
means of its role as the Cognizant Agency for Single Audits and
during reviews of programs operated by the Tribe and funded by
the Bureau, such as the Indian Child Welfare Program, the Housing
Improvement Program, and the Economic Development Program.

Based on the Tribe's success in bringing their accounts payable
current; their adoption of written personnel, financial and
procurement procedures; their implementation of a centralized
accounting system; and their drafting Articles of Government for
presentation to a referendum vote, we agree that the Northern
Arapaho Tribe is making significant improvements in administering
its programs.



Attachment




                              10
                                                        APPENDIX 1
                                                        Page 3 of 5



                       Corrective Action Plan
    OIG Draft Audit Report C-IN-BIA-004-94: Administration of
          Selected Programs by the Northern Arapaho Tribe

The subject audit was requested by the Bureau of Indian Affairs
(Bureau), Billings Area Director, on behalf of the Northern
Arapaho Tribe. The audit addressed whether the Tribe was
administering selected programs effectively and efficiently.
Below are the Tribe’s actions to respond to Recommendations Al,
B.1, B.2, B.3, B.4, and B.5 contained in the draft audit report.

Recommendation     Al:  Identify any potential Tribal resources that
can be used to    resolve the Tribe’s overdue accounts payable and
to finance the    planning and implementation of improved
administrative   system for the Tribe.

Northern Arapaho Response: As of January 1995, the Northern
Arapaho Tribe has paid all accounts payable except $40,000 for
irrigation operation and maintenance, which is pending
reconciliation prior to payment. The Arapaho Business Council
(Council) has adopted the policy of paying all accounts within a
30 day accounting cycle.
Recommendation B.1: Develop and implement procedures to
effectively administer Tribal programs.

Northern Arapaho Response: The Northern Arapaho Business Council
has drafted a Personnel Manual, a Financial Manual and a
Procurement Manual to define procedures for those administrative
functions.   The Council has also drafted Articles of Government
to define the role of the Arapaho General Council and the Tribe’s
elected representatives; to establish administrative standards,
operating procedures and management controls; and to provide
accountability to the Northern Arapaho people. The Council will
submit the Articles to a referendum vote by December 1996.
Adoption of the Articles will define governing standards to be
followed by the General Council and Tribal administrative
organizations.   The Arapaho Business Council is committed to
establishing a continuing governing structure to provide
stability and accountability for Tribal operations.

Recommendation B.2:   Develop and implement an organizational plan
that contains written policies and procedures and clear lines of
authority so that the administrative managers can incur
obligations on behalf of the Tribe and pay those obligations and
program managers can conduct their programs without the Business
Council being involved in the conduct of the programs.

Northern Arapaho Response: The Arapaho Business Council has
drafted a Personnel Manual which defines an organization
structure and lines of authority. The Manual requires written
organization descriptions to define the responsibilities and
authority delegated to each organizational structure.



                                11
                                                           APPENDIX 1
                                                           Page 4 of 5



Recommendation B.3: Prepare, implement, and comply with an
integrated annual budget for all types of funding.

Northern Arapaho Response: The Arapaho Business Council has
drafted a Financial Manual and has scheduled implementation
during January and February 1995. The procedures identify,
budget and account for all financial resources available to the
Tribe.  Further, the Council purchased and implemented MUNIS, a
personal computer resident software package, to support the
Tribe’s budgeting, accounting and procurement operations. The
Council plans to develop a data base, utilizing MUNIS software,
to budget and account for funds administered jointly with the
Shoshone Tribe. The Shoshone Tribe has already implemented their
MUNIS software, and all jointly administered programs are
scheduled to implement MUNIS in the future. Thus , all tribal
programs will have consistent software programs for financial
reporting purposes.

Recommendation B.4: Hire qualified personnel to implement a
documented financial and budgetary accounting system and to
establish a system of monitoring programs and program managers.

Northern Arapaho Response:   In December 1994, the Arapaho
Business Council initiated a recruitment action to hire a
Financial Manager and trained five accounting support staff in
the operation of the MUNIS financial management software. The
Council, using MUNIS software, is proceeding with implementation
of their financial procedures on the following schedule:

January 01, 1995 -       Establish approval levels for individual
                         purchases

                         Implement accounts payable function to
                         determine payable schedules

February 01, 1995-       Implement travel function of MUNIS software

February 15, 1995-       Implement MUNIS function to generate purchase
                         orders

March   31,   1995   -   Start meeting with department and program
                         directors on a monthly basis discussing
                         issues and program status.  Centralize
                         purchasing function to ensure all purchases
                         are promptly approved and properly recorded.

June    30,   1995   -   Develop an activity based reporting system
                         that will help monitor programs by level of
                         program activity.


The Council will generate management and financial reports on a
monthly basis from the MUNIS data base, beginning with the
February 1995, accounting cycle.

                                   12
                                                              APPENDIX 1
                                                              Page 5 of 5


Recommendation B.5: Establish, under the authority of the
business manager, a documented personnel and property system that
includes a staffing plan, position descriptions, performance
standards, an employee evaluation system, training profiles, and
procedures for ensuring merit protection for employees and
procedures for identifying all nonexpendable equipment and
controls to ensure its proper use.

Northern Arapaho Response: The Arapaho Business Council has
drafted a Personnel Manual to define procedures for position
classification; staff recruitment and hiring; benefit packages,
including holiday and leave benefits; and evaluating, rewarding,
counseling, or disciplining employees. The Manual defines an
organization structure; defines the roles and responsibilities of
the Council and department heads in personnel management;
requires written position descriptions to define the
responsibilities of each staff member; and establishes an
employee grievance and problem resolution process. The Council
will implement procedures defined in the Personnel Manual on the
following schedule:

January      1995   -   Review and adopt procedures

February     1995   -   Solicit review and input from representative
                        committee of employees

                        Define and publish salary scale

March 1995          - Provide training in personnel procedures to
                       all employees

The Council includes property management procedures in its
Procurement Manual. Property procedures define authority and
supporting forms for issuance and charging of inventory items.
The Council adopted the procedures defined in the Procurement
Manual during January 1995.




Responsible Official:



                                          February 09, 1995

Richard Brannon, Chairman              Date
Arapaho Business Council




                                  13
                                                     APPENDIX 2

     STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/
Recommendation
    Reference       Status               Action Required


  1, 2, and 3    Implemented.     No further action is required.




                             14
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                   Calling:


                      Within the Continental United States


U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
P.O. Box 1593                                            1-800-424-5081 or
Arlington, Virginia 22210                                (703) 235-9399

                                                         TDD for the hearing impaired
                                                         (703) 235-9403 or
                                                         1-800-354-0996


                     Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                                  North Pacific Region

U.S. Department of the Interior                          (700) 550-7279 or
Office of Inspector General                              COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
